SIGAR                          Special Inspector General for
                                Afghanistan Reconstruction




                                       SIGAR 14-100 Financial Audit



      USAID’s Afghanistan Municipal Strengthening
      Program: Audit of Costs Incurred by
      International City/County Management
      Association




                                          SEPTEMBER
                                                   2014
SIGAR 14-100-FA/AMSP
                                                  September 2014



SIGAR
                                                  USAID’s Afghanistan Municipal Strengthening Program: Audit of Costs
                                                  Incurred by International City/County Management Association

                                                 SIGAR 14-100-FA
Special Inspector General for
Afghanistan Reconstruction                       WHAT THE AUDIT FOUND
                                                 Williams Adley & Company-DC, LLP (Williams Adley) identified five internal control
WHAT THE AUDIT REVIEWED
                                                 deficiencies and five instances of noncompliance in auditing costs incurred by
On May 1, 2007, the U.S. Agency for              the International City/County Management Association (ICMA) in implementing
International Development awarded the            the U.S. Agency for International Development’s (USAID) Afghanistan Municipal
International City/County Management             Strengthening Program. Specifically, Williams Adley found that ICMA’s internal
Association (ICMA) a cooperative                 control processes did not ensure the retention of sufficient supporting
agreement to implement the Afghanistan           documentation for transactions related to the Other Direct Costs, Travel and
Municipal Strengthening Program. Under           Transportation, and Activities cost categories. This included USAID’s approval of
the program, ICMA sought to improve the          a security contract for more than $1.4 million. Williams Adley also noted that
delivery of public services in provincial        ICMA’s misunderstanding of applicable travel rules prompted it to improperly
capitals through such activities as public       charge USAID more than $40,000 in business class travel costs for seven
works and utility projects, city-to-city         travelers. Further, Williams Adley found that ICMA failed to enforce its own
partnerships, and human capital                  policies relative to competitive procurements related to municipal waste
development.                                     management equipment and a construction project in Asadabad, the capital of
SIGAR’s financial audit, performed by            Kunar province.
Williams Adley & Company-DC, LLP                 As a result of these deficiencies and instances of noncompliance, Williams Adley
(Williams Adley), reviewed expenditures of       identified $2,056,308 in total questioned costs, comprised of $1,951,122 in
$25,124,306 from May 1, 2007, through            unsupported costs—costs for which inadequate supporting documentation was
August 31, 2010. Williams Adley                  provided—and $105,186 in ineligible costs—costs prohibited by the agreement,
(1) identified and reported on significant       applicable laws, or regulations.
deficiencies or material weaknesses in
ICMA’s internal controls related to the                       Category          Questioned Costs Total      Ineligible   Unsupported
cooperative agreement; (2) identified and            Travel & Transportation                    $33,542      $32,524             $1,018
reported on instances of material                    Other Direct Costs                      $1,584,509            $0     $1,584,509
noncompliance with the terms of the                  Activities                                 $55,033      $53,473             $1,560
award and applicable laws and                        Indirect Costs                            $383,224      $19,189       $364,035
regulations, including any potential fraud           Totals                                  $2,056,308    $105,186       $1,951,122
or abuse; (3) determined and reported on
whether ICMA had taken corrective action         Williams Adley identified five prior recommendations that could have had a
on prior findings and recommendations;           material impact on ICMA’s Special Purpose Financial Statement. It found that
and (4) expressed an opinion on the fair         ICMA took corrective action on all five recommendations.
presentation of ICMA’s Special Purpose           Williams Adley rendered a qualified opinion on ICMA’s Special Purpose Financial
Financial Statement. See Williams Adley’s        Statement because of the material effects associated with more than $2 million
report for the precise audit objectives.         in questioned costs.
In contracting with an independent audit
firm and drawing from the results of a             WHAT SIGAR RECOMMENDS
contracted audit, SIGAR is required by
                                                   Based on the results of the audit, SIGAR recommends that the Mission Director
auditing standards to provide oversight of
                                                   for USAID/Afghanistan:
the work performed. Accordingly, SIGAR
reviewed Williams Adley’s audit results            1. Determine the allowability of and recover, as appropriate, $2,056,308 in
and found them to be in accordance with               questioned costs identified in the report.
generally accepted government auditing             2. Advise ICMA to address the report’s five internal control findings.
standards.                                         3. Advise ICMA to address the report’s five noncompliance findings.



       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
September 15, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by International City/County Management
Association (ICMA) under a U.S. Agency for International Development (USAID) cooperative agreement to
implement the Afghanistan Municipal Strengthening Program.1 The audit, performed by Williams Adley &
Company-DC, LLP, covered the period May 1, 2007, through August 31, 2010, and expenditures of
$25,124,306. Based on the results of the audit, SIGAR recommends that the Mission Director for
USAID/Afghanistan:
1. Determine the allowability of and recover, as appropriate, $2,056,308 in questioned costs identified in the
   report.
2. Advise ICMA to address the report’s five internal control findings.
3. Advise ICMA to address the report’s five noncompliance findings.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction




(F-031)




1   USAID/Afghanistan cooperative agreement No. 306-A-00-07-00514-00.
SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN
              RECONSTRUCTION

    FINANCIAL AUDIT OF COSTS
          INCURRED BY
              ICMA
      Cooperative Agreement:
      306-A-00-07-00514-00

  May 1, 2007 to August 31, 2010


                  Submitted by




                  May 23, 2014
SIGAR                                       Special Purpose Financial Statement                                                                         ICMA



Table of Contents
Transmittal Letter ......................................................................................................................................... 1
Summary ....................................................................................................................................................... 1
   Background ............................................................................................................................................... 1
   Work Performed ....................................................................................................................................... 1
   Objectives ................................................................................................................................................. 1
   Scope ......................................................................................................................................................... 2
   Methodology............................................................................................................................................. 3
   Summary of Results .................................................................................................................................. 3
Independent Auditor’s Report on the Special Purpose Financial Statement ............................................... 6
Special Purpose Financial Statement ............................................................................................................ 8
Notes to the Special Purpose Financial Statement ....................................................................................... 9
Notes to the Questioned Amounts Presented on the Special Purpose Financial Statement..................... 12
Independent Auditor’s Report on Internal Control ............................................................................ 13
Independent Auditor’s Report on Compliance ........................................................................................... 15
Schedule of Findings and Questioned Amounts ......................................................................................... 17
       Finding 2014-01: Unsupported Questioned Costs (Material Non-Compliance and Material
       Weakness) ........................................................................................................................................... 17
       Finding 2014-02: Ineligible Questioned Costs (Material Non-Compliance and Material Weakness) 19
       Finding 2014-03: Non-competitive procurement for two program related activities (Non-
       compliance and Significant Deficiency) .............................................................................................. 20
       Finding 2014-04: Vetting Sub-awards and Subcontracts (Material non-Compliance, Material
       Weakness) ........................................................................................................................................... 22
       Finding 2014-05: Improper Accounting Procedures (Non- compliance and Significant Deficiency) .. 23
Attachment A – Management Response .................................................................................................... 25
Attachment B – Auditor Response to Management Comments ................................................................ 37




WILLIAMS ADLEY
Transmittal Letter
August 6, 2014

Leadership Team
International City/County Management Association (ICMA)
Washington, DC

Office of the Special Inspector General for Afghanistan Reconstruction
Arlington, VA

We hereby provide to you our final report, which reflects results from the procedures we completed during
the course of our audit of the International City/County Management Association’s (“ICMA”) cooperative
agreement number 306-A-00-07-00514-00 with the United States Agency for International Development
(USAID) for its Afghanistan Municipal Strengthening Program (AMSP).

Within the pages that follow, we provide a brief summary of the work performed. Following the summary,
we provide our Report on the Special Purpose Financial Statement, Report on Internal Control, and Report
on Compliance. We do not express an opinion on the summary and any information preceding our reports.

On May 23, 2014, we provided SIGAR a draft report reflecting our audit procedures and results. ICMA
received a copy of the report on June 26, 2014 and provided written responses subsequent thereto. These
responses have been considered in the formation of the final report, along with the written and oral
feedback provided by SIGAR and ICMA. ICMA’s responses and our corresponding auditor analysis are
incorporated into this report following our audit reports.

Thank you for providing us the opportunity to work with you and to conduct the audit of ICMA’s AMSP
cooperative agreement.

Sincerely,




Charbet M. Duckett, CPA, CGFM
Partner



                                   WILLIAMS, ADLEY & COMPANY-DC, LLP
                            Certified Public Accountants / Management Consultants
       1030 15th Street, N.W., Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                             www.williamsadley.com
SIGAR                    Special Purpose Financial Statement                      ICMA



Summary
Background
The United States Agency for International Development (USAID) provides funding to
grant recipients for services related to reconstruction activities in Afghanistan.
Congress created the Office of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) to provide independent and objective oversight of Afghanistan
reconstruction projects and activities. Under the authority of Section 1229 of the
National Defense Authorization Act for Fiscal Year 2008 (P.L. 110-181), SIGAR conducts
audits and investigations to: 1) promote efficiency and effectiveness of reconstruction
programs and 2) detect and prevent waste, fraud, and abuse. As a result, USAID funded
activities in Afghanistan fall under the purview of SIGAR in fulfilling its mandate.

On May 1, 2007, USAID awarded $14,000,000 to International City/County
Management Association’s (“ICMA”) under cooperative agreement number 306-A-00-
07-00514-00 to implement a municipal strengthening program (AMSP) in Afghanistan.
The award and subsequent modifications which increased the awarded amount to
$24,954,276, were executed to improve the delivery of services in provincial capitals and
provide technical assistance and capacity building through the engagement of various
populations in Afghanistan municipalities in economic, political and social activities.
ICMA’s AMSP responds to the following USAID’s Strategic Objectives and Intermediate
Results:

   •    USAID Afghanistan’s Strategic Objective 6: Democratic Government with Broad
        Citizen Participation, specifically its desire to:
            o Strengthen Institutions for Good Governance through improving delivery
               of public services, and
            o Support Democratic Local Government through capacity building and
               training of the workforce of provincial and municipality governments.

Work Performed
Williams Adley and Company-DC, LLP (Williams Adley) was contracted by SIGAR to
conduct a special purpose financial audit of ICMA’s AMSP cooperative agreement 306-
A-00-07-00514-00 Special Purpose Financial Statement.

Objectives
The objectives of the audit are to:

   1. Express an opinion on whether the Special Purpose Financial Statement for the
      award presents fairly, in all material respects, revenues received, costs incurred,
      items directly procured by the U.S. Government and balance for the period
      audited in conformity with the terms of the award and generally accepted

                                                                                      1
SIGAR                  Special Purpose Financial Statement                       ICMA

        accounting principles (GAAP) or other comprehensive basis of accounting
        (OCBOA).

   2. Evaluate and obtain a sufficient understanding of ICMA’s internal controls
      related to the USAID-funded program, assess control risk, and identify
      significant deficiencies including material weaknesses.

   3. Perform tests to determine whether ICMA complied, in all material respects, with
      award requirements and applicable laws and regulations; and identify and report
      on instances of material noncompliance with terms of the award and applicable
      laws and regulations, including potential fraud or abuse that may have occurred.

   4. Determine and report on whether ICMA has taken adequate corrective action to
      address findings and recommendations from previous engagements that could
      have a material effect on the special purpose financial statement.

Scope
The scope of work in performing the engagement services related to the project in
Afghanistan under cooperative agreement 306-A-00-07-00514-00 was to:
   1. Review the Special Purpose Financial Statement and related Notes to the
      Statement that are the responsibility of ICMA’s management. We reviewed
      internal controls related to the financial information for the audit period,
      including financial management systems controls and edit checks, procedural
      controls (documentation receipt, validation, reviews, approval levels,
      recordation, reconciliation, separation of duties, signatory requirements, etc.),
      and internal/external audits of project activities and the impact of corrective
      actions, if any.

   2. Perform compliance testing including, but not limited to, activities allowed or
      unallowed; allowable costs/cost principles; cost determination/indirect costs;
      cash management; eligibility; equipment and real property management;
      matching, level of effort and earmarking; period of availability of Federal funds;
      procurement and suspension and debarment; program income; reporting; and
      sub-recipient selection and monitoring.

   3. Evaluate and determine if ICMA has taken adequate corrective action to address
      findings and recommendations from previous engagements that could have a
      material effect on the audited Special Purpose Financial Statement.

We looked at transactions for the period from May 1, 2007 through August 31, 2010 and
subsequent events and information related to the findings and questioned amounts for
the audit period, and we expressed an opinion on the Special Purpose Financial
Statement and related Notes for the audit period.



                                                                                     2
SIGAR                    Special Purpose Financial Statement                         ICMA


Methodology
To meet the audit objectives, Williams Adley identified the applicable criteria needed to
test the Special Purpose Statement and supporting financial records and documentation
through a review of the cooperative agreement and modifications thereto. The criteria
included OMB circulars; USAID automated directives system guidelines; and
regulations under 22 CFR, Part 226, and cost principles for grant funds under 2 CFR,
Part 230 (OMB Circular A-122). In addition, Williams Adley reviewed ICMA’s
organizational charts and reporting hierarchy, policies and procedures, and the status of
prior audit report findings to gain an understanding of the normal procedures and
system of internal controls established by ICMA to provide reasonable assurance of
achieving reliable financial reporting and compliance with applicable laws and
regulations.

Williams Adley used both random and risk-based sampling techniques to select
expenditures and payroll samples to test for allowability of incurred costs, and we
reviewed procurement records to determine cost reasonableness and compliance with
exclusion of parties not eligible to participate in federal awards. We requested and
received supporting documentation for compliance evaluation of incurred costs. We
reviewed submitted financial status reports for accuracy and compliance with reporting
requirements. Testing of indirect costs was limited to determining whether indirect
costs were calculated and charged to the U.S. Government in compliance with the
negotiated indirect cost rate agreement.

The financial records for the sole sub-recipient of the AMSP Cooperative Agreement
were located in Ahmedabad, India. As a result, transaction testing in support of sub-
recipient costs incurred was performed on electronic copies of the documents with
certificate signed by the sub-recipient’s Director stating that those are true copies of the
primary documents.

Summary of Results
Williams Adley issued a qualified opinion on ICMA’s Special Purpose Financial
Statement (the Statement). Williams Adley also reported on ICMA’s internal controls
and compliance regarding the Statement. Upon completion of our audit procedures,
Williams Adley identified five findings. Three findings were considered material
weaknesses in internal control and material instances of noncompliance. Two findings
were considered significant deficiencies and instances of noncompliance. Where
internal control and compliance findings pertained to the same matter, we consolidated
them into a single finding. Other insignificant issues were reported in a separate
management letter.
A total of $2,056,308 was questioned. The questioned amounts are summarized in the
following table:




                                                                                         3
SIGAR                              Special Purpose Financial Statement                                ICMA

Table 1: Summary of Questioned Costs 1
                                                                                                Cumulative
                                                                                Questioned      Questioned
Finding Number                                  Issue                            Amount          Amounts

2014-01                     Unsupported Questioned Costs                           $1,951,122     $1,951,122

2014-02                     Ineligible Questioned Costs                              $40,344      $1,991,466

                            Non-competitive procurement for
2014-03                                                                              $64,842     $2,056,308
                            two program related activities


This summary is intended to present an overview of the results of procedures completed
for the purpose described herein and is not intended to be a representation of the audit
results in their entirety.

Summary of Prior Audit Reports

Prior audits, assessments or reviews of ICMA that we considered applicable to the scope
of our work were obtained and read to ensure that there were no significant deficiencies
or material weaknesses noted. We obtained and reviewed ICMA’s A-133 Audit Reports
for FY 2007 through FY 2012. For any significant deficiencies or material weaknesses
affecting the cooperative agreement, we performed test work to ensure proper
correction of any significant deficiencies or material weaknesses that impacted the
project. ICMA took corrective action on the five prior recommendations that could have
a material impact on the Statement.

       •   FY 2007 and 2008: Two prior findings were noted during these periods that
           indicated that “Certain reports were noted that were filed after the required due
           date”.

           Corrective Action: The process for submission of reports was changed in
           2010, when it was decided by ICMA to eliminate an additional step in the process
           and make the submission of quarterly reports the responsibility of the Finance
           staff, instead of the responsibility of program staff. No additional findings
           related to untimely submission of financial reports were identified by the auditors
           in the 2009-2012 OMB A-133 reports.

           In a separate management letter, we communicated to ICMA that two (2) reports
           were untimely submitted: one SF 272 for the second quarter of 2008 and a FFR
           425 for the last quarter of 2009. However, we determined that ICMA did take
           adequate corrective action to address the A-133 findings based on our review of


1
    Includes indirect costs. Refer to Schedule of Findings and Questioned Costs for details.
                                                                                                         4
SIGAR                    Special Purpose Financial Statement                       ICMA

        the revised procedures, our testing of financial reporting and as evidenced by the
        lack of a related finding in later years.

   •    FY 2007, 2008, 2009: A Three prior findings were stated that “There was no
        documentation indicating that the Association had determined that contractors
        were eligible to provide services to the federal government”.

        Corrective Action: ICMA implemented a new process in its Field Operations
        Manual, effective 2010 to address the verification of vendors and contracts
        against relevant databases for procurements in excess of $5,000. In addition,
        ICMA revised its record retention policy to extend the period for which
        cooperative agreements supporting documentation is stored. The period is now 4
        years.

        During our testing of contracts and sub-agreements, we determined that ICMA
        did not provide documentation to support that vetting efforts were conducted
        prior to awarding forty-seven (47) contracts over $25,000 during the
        performance period, May 1, 2007 to August 31, 2010. See Finding 2014-04.
        However, we determined that ICMA did take adequate corrective action to
        address the A-133 findings as evidenced by the change in practice, and lack of a
        related finding in later years.

Summary of Management Comments

In responding to the draft audit report (see Attachment A), ICMA management did not
agree with findings 2014-01, 2014-02 and 2014-03, contending that questioned costs
should be removed from the Audit Report. Management stated that they provided
adequate support for the majority of questioned unsupported costs incurred, as well as
providing cost reasonableness support and proof of appropriate prior approvals for the
ineligible questioned costs. ICMA management did agree with findings 2014-04 and
2014-05. The auditor responded to management’s comments as detailed in Attachment
B to this Audit Report.

Attachments

The auditor’s reports are supplemented by 2 attachments:

Attachment A contains ICMA’s official management response to the draft report.
Attachment B contains the auditor response to management comments.




                                                                                       5
    Independent Auditor’s Report on the Special Purpose Financial
                             Statement

Leadership Team
International City/County Management Association (ICMA)
Washington, DC

Office of the Special Inspector General for Afghanistan Reconstruction
Arlington, VA

We have audited the Special Purpose Financial Statement (the “Statement”) of the
International City/County Management Association (“ICMA”) cooperative agreement
number 306-A-00-07-00514-00 for the period of May 1, 2007 to August 31, 2010, and
the related Notes to the Statement. The special purpose financial statement is the
responsibility of ICMA’s management. Our responsibility is to express an opinion on the
special purpose financial statement based on our audit.

We conducted our audit of the special purpose financial statement in accordance with
Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the special purpose financial statement is free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the special purpose financial statement. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We
believe that our audit provides a reasonable basis for our opinion.

The accompanying statement was prepared to present the revenues and cost incurred of
ICMA pursuant the cooperative agreement number 306-A-00-07-00514-00 described
in Note 1, and is not intended to be a complete presentation of ICMA's assets, liabilities,
revenues and expenses.

The results of our tests disclosed the following material questioned costs as detailed in
the special purpose financial statement: (1) $105,186 in costs that are questioned
because reasonableness could not be determined; and (2) $1,951,122 in costs that are
not supported with adequate documentation or did not have required prior approvals or
authorizations.

                                                                                                           6
                                 WILLIAMS, ADLEY & COMPANY-DC, LLP
                           Certified Public Accountants / Management Consultants
             th
      1030 15 Street, N.W., Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                           www.williamsadley.com
In our opinion, except for the effects of the matters described above, the Statement
referred to above presents fairly, in all material respects, program revenues, costs
incurred and reimbursed, and items and technical assistance directly procured by
USAID for the indicated period in accordance with the terms of the agreements and in
conformity with the basis of accounting described in Note 1.

In accordance with Government Auditing Standards, we have also issued reports dated
May 16, 2014, on our consideration of ICMA’s internal controls and on our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters.
Those reports are an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this
Independent’s Auditor’s Report in considering the results of our audit.

This report is intended for the information of ICMA, the United States Agency for
International Development and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions
of 18 U.S.C. 1905 should be considered before any information is released to the public.




May 16, 2014
Washington, D.C.




                                                                                     7
SIGAR                             Special Purpose Financial Statement                          ICMA


               International City/County Management Association (ICMA)

              Special Purpose Financial Statement
                       Associate Cooperative Agreement No. 306-A-00-07-00514-00
                           United States Agency for International Development
                              For the Period May 1, 2007 to August 31, 2010


                                                                Questioned Amounts
                               Total
                              Budget          Actual        Ineligible      Unsupported        Notes
Revenues
Cooperative
                           $24,954,276      $24,954,276
Agreement
306-A-00-07-000514                                                                                  4
Total Revenue              $24,954,276      $24,954,276

Costs Incurred
 Personnel                    $1,275,030     $1,255,182
 Consultants                     371,754        428,598
 Travel and
                                681,424       1,298,365           32,524             1,018
 Transportation                                                                                     A
 Other Direct Costs            9,115,048      9,239,246                        1,584,509            B
 Allowances                      821,227      1,063,420
 Activities                    6,599,344      6,261,281           53,473             1,560          C
Total Direct Costs                          $19,546,092           85,997       1,587,087
                           $18,863,827
Indirect Charges                              5,578,214           19,189         364,035
                             6,090,449                                                         A,B,C
Total Costs Incurred       $24,954,276     $ 25,124,306        $105,186       $1,951,122

Outstanding Fund
Balance (deficit)         $         -0-    $ (170,030)                                              6



      The Notes to the Special Purpose Financial Statement are an Integral Part of this Statement




                                                                                                        8
                Notes to the Special Purpose Financial Statement2
                       For the Period May 1, 2007 through August 31, 2010

Note 1. Status and Operation

Founded in 1914, the International City/County Management Association (ICMA)
advances professional local government worldwide. ICMA is a 501(c)(3) nonprofit
organization that offers a wide range of services to its members and the local
government community. Their mission and vision is to create excellence in local
governance by developing and fostering professional management to build sustainable
communities that improve people’s lives worldwide. ICMA provides member support,
publications, data and information, peer and results-oriented assistance, and training
and professional development to nearly 9,000 city, town, and county experts and other
individuals and organizations throughout the world.

On May 1, 2007, USAID awarded $14,000,000 to ICMA under Cooperative Agreement
No. 306-A-00-07-00514-00 to implement a municipal strengthening program in
Afghanistan (AMSP). The award and subsequent modifications, which increased the
awarded amount to $24,954,276, were executed to improve the delivery of services in
provincial capitals and provide technical assistance and capacity building through the
engagement of various populations in Afghanistan municipalities in economic, political
and social activities.


Note 2. Summary of Significant Accounting Policies

Basis of Presentation

The accompanying Special Purpose Financial Statement (the “Statement”) includes
costs incurred under the aforementioned cooperative agreement for the period May 1,
2007 through August 31, 2010. The information in this Statement is presented in
accordance with requirements specified by USAID and is specific to the aforementioned
Cooperative Agreement. Therefore, some amounts presented in this Schedule may differ
from amounts presented in, or used in the presentation of, the basic financial
statements

The Statement includes costs incurred under Cooperative Agreement No. 306-A-00-07-
000514 for the Afghanistan Municipal Strengthening Program for the period May 1,
2007 through August 31, 2010. Because the Statement presents only a selected portion
of the operations of ICMA, it is not intended to and does not present the financial
position, changes in net assets, or cash flows of ICMA.



2
  Numeric notes to the Special Purpose Financial Statement were developed by and are the responsibility of
ICMA’s management.
                                                                                                             9
SIGAR                   Special Purpose Financial Statement                       ICMA


Basis of Accounting
Expenditures are recognized following the cost principles contained in OMB Circular A-
122, Cost Principles for Non-Profit Organizations, wherein certain types of expenditures
are not allowable or are limited as to reimbursement. Such expenditures were reported
on the Statement on the accrual basis whereby revenue is recognized when earned and
expenses are recognized when incurred.

Note 3. Foreign Currency Conversion Method

For purposes of preparing the Statement, ICMA applies the actual exchange rate of U.S.
dollars exchanged to Afghanis (the local currency) when the transaction is recorded in
ICMA’s books. The exchange rate varied from 45.76 to 51.91 AFN/USD during the
period under audit.

Note 4. Revenues

Revenues on the Statement represent amounts reimbursed to ICMA by USAID for
eligible costs incurred under the cooperative agreement during its period of
performance.

Note 5. Costs Incurred by Budget Category

The budget categories presented and associated amounts reflect the budget line items
presented within the final budget approved by USAID as a component of the eighth
modification to the cooperative agreement dated October 19, 2009.

Note 6. Fund Balance

The fund balance presented on the Statement represents the difference between
revenues recognized and costs incurred in the course of implementing the cooperative
agreement. The negative fund balance of $170,030 consists of costs incurred in
connection with and within the period of performance of the project in excess of the
total obligated amount. These costs, paid by ICMA unrestricted funds, were necessary in
order to properly complete and close out the award but were not be billed to USAID.

Note 7. Status of Invoicing to USAID

The Statement, as presented, reflects all invoices submitted to and paid by USAID as of
May 9, 2014. The cooperative agreement has been closed, and the final invoice has been
rendered to and paid by USAID.

Note 8. Currency

All amounts presented are shown in U.S. dollars – the reporting currency of ICMA.


                                                                                    10
SIGAR                  Special Purpose Financial Statement                     ICMA

Note 9. Subsequent Events

Management has performed an analysis of the activities and transactions subsequent to
the May 1, 2007, through August 31, 2010, period of performance of the cooperative
agreement. Management has performed this analysis through May 16, 2014 – the date
the Statement was available to be issued – and identified no issues or matters that
would materially alter the Special Purpose Financial Statement as presented.




                                                                                 11
SIGAR                          Special Purpose Financial Statement                                         ICMA


    Notes to the Questioned Amounts Presented on the Special Purpose
                           Financial Statement 3

Note A: Questioned Costs – Travel and Transportation

Finding 2014-01 questions $1,018 in travel related costs and $241 in ICMA indirect
costs 4 for transactions that were missing supporting documents or the supporting
documents did not agree with the amount paid. As a result, we questioned the
transactions as unsupported costs.

Finding 2014-02 questions $32,524 in travel related costs and $7,820 in ICMA indirect
costs for business travel transactions with costs for which evidence of cost
reasonableness could not be determined. As a result, these incurred costs were deemed
ineligible.

Note B: Questioned Costs – Other Direct Costs

Finding 2014-01 questions $1,584,509 in other direct costs and $363,434 in ICMA
indirect costs for transactions that were missing supporting documents or the
supporting documents did not agree with the amount paid. Out of the $1,584,509,
$1,432,645 pertains to security related expenses for which ICMA could not provide the
required USAID approval for the security subcontractor and $128,041 in local payroll
transactions for which supporting documentation was missing. In addition, $23,823 in
other direct costs are being questioned because no supporting documentation was
provided. As a result, we questioned the transactions as unsupported costs.

Note C: Questioned Costs – Activities

Finding 2014-01 questions $1,560 for an employee related expense and $360 in ICMA
indirect costs 5 for a transaction that was missing supporting documents. As a result, we
questioned the transactions as unsupported costs.

Finding 2014-03 questions $53,473 for program related expenses that were not
competitively procured and $11,369 in ICMA indirect costs for transactions that was
missing supporting documents. As a result, these incurred costs were deemed ineligible.




3
  Alphabetic notes to the questioned amounts presented on the special purpose financial statement were
developed by and are the responsibility of the auditor.
4
  Questioned indirect costs were calculated by applying the applicable Negotiated Indirect Cost Rates to the
questioned costs by category by ICMA fiscal year. The rates used ranged from 14.73% to 30.50%.
                                                                                                               12
           Independent Auditor’s Report on Internal Control

Leadership Team
International City/County Management Association (ICMA)
Washington, DC

Office of the Special Inspector General for Afghanistan Reconstruction
Arlington, VA

We have audited the Special Purpose Financial Statement (Fund Accountability
Statement or the “Statement”) of the International City/County Management
Association (“ICMA”) cooperative agreement number 306-A-00-07-00514-00 for the
period of May 1, 2007 to August 31, 2010, and have issued our report thereon dated May
16, 2014.

We conducted our audit in accordance with U.S. Government Auditing Standards issued
by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the special purpose
financial statement is free of material misstatement.

The management of ICMA is responsible for establishing and maintaining internal
control. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs of internal control policies and
procedures. The objectives of internal control are to provide management with
reasonable, but not absolute, assurance that the assets are safeguarded against loss from
unauthorized use or disposition; transactions are executed in accordance with
management's authorization and in accordance with the terms of the agreements; and
transactions are recorded properly to permit the preparation of the special purpose
financial statement in conformity with the basis of accounting described in Note 1 to the
special purpose financial statement. Because of inherent limitations in internal control,
errors or fraud may nevertheless occur and not be detected. Also, projection of any
evaluation of the structure to future periods is subject to the risk that procedures may
become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.



                                                                                                           13
                                 WILLIAMS, ADLEY & COMPANY-DC, LLP
                           Certified Public Accountants / Management Consultants
             th
      1030 15 Street, N.W., Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                           www.williamsadley.com
In planning and performing our audit of the special purpose financial statement for the
period of May 1, 2007 through August 31, 2010 we obtained an understanding of ICMA’s
internal control. With respect to internal control, we obtained an understanding of the
design of relevant policies and procedures and whether they have been placed in
operation, and we assessed control risk in order to determine our auditing procedures
for the purpose of expressing our opinion on the special purpose financial statement and
not to provide an opinion on internal control. Accordingly, we do not express such an
opinion.

Our consideration of internal control would not necessarily disclose all matters in
internal control that might be material weaknesses under standards established by the
American Institute of Certified Public Accountants (AICPA). A deficiency in internal
control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency,
or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis. We consider the deficiencies
described in the accompanying Schedule of Findings and Questioned Amounts to be
material weaknesses: Finding 2014-01, 2014-2 and 2014-4. We consider the deficiencies
described in the accompanying Schedule of Findings and Questioned Amounts to be
significant deficiencies: Finding 2014-03 and Finding 2014-05.

We noted certain matters involving internal control and its operation that we have
reported to the management of ICMA in a separated letter dated May 16, 2014.

This report is intended solely for the information of ICMA, United States Agency for
International Development and the Special Inspector General for Afghanistan
Reconstruction, and is not intended to be and should not be used by anyone other than
these specified parties. Financial information in this report may be privileged. The
restrictions of 18 U.S.C. 1905 should be considered before any information is released to
the public. However, upon release by SIGAR, this report is a matter of public record and
its distribution is not limited.




May 16, 2014
Washington, D.C.




                                                                                     14
                 Independent Auditor’s Report on Compliance

Leadership Team
International City/County Management Association (ICMA)
Washington, DC

Office of the Special Inspector General for Afghanistan Reconstruction
Arlington, VA

We have audited the Special Purpose Financial Statement (Fund Accountability
Statement or the “Statement”) of the International City/County Management
Association (“ICMA”) cooperative agreement number 306-A-00-07-00514-00 for the
period of May 1, 2007 to August 31, 2010, and have issued our report thereon dated May
16, 2014.

We conducted our audit in accordance with U.S. Government Auditing Standards issued
by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the Statement is
free of material misstatement resulting from violations of agreement terms and laws and
regulations that have a direct and material effect on the determination of the Statement
amounts.

Compliance with agreement terms and laws and regulations applicable to ICMA is the
responsibility of ICMA’s management. As part of obtaining reasonable assurance about
whether the Statement is free of material misstatement, we performed tests of ICMA’s
compliance with certain provisions of agreement terms and laws and regulations.
However, our objective was not to provide an opinion on overall compliance with such
provisions. Accordingly, we do not express such an opinion.

Material instances of noncompliance are failures to follow requirements or violations of
agreement terms and laws and regulations that cause us to conclude that the
aggregation of misstatements resulting from those failures or violations is material to
the Statement. The results of our compliance tests disclosed the following material
instances of noncompliance, the effects of which are shown as questioned amounts in
the accompanying Schedule of Findings and Questioned Amounts as: Findings 2014-01,
2014-2, and 2014-4.

                                                                                                          15
                                WILLIAMS, ADLEY & COMPANY-DC, LLP
                          Certified Public Accountants / Management Consultants
            th
     1030 15 Street, N.W., Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                          www.williamsadley.com
SIGAR                   Special Purpose Financial Statement                       ICMA

We considered these material instances of noncompliance in forming our opinion on
whether ICMA’s Statement is presented fairly, in all material respects, in accordance
with the terms of the agreements and in conformity with the basis of accounting
described in Note 2 to the Statement, and this report does not affect our report on the
Schedule dated May 16, 2014.

This report is intended solely for the information of ICMA, United States Agency for
International Development and the Special Inspector General for Afghanistan
Reconstruction, and is not intended to be and should not be used by anyone other than
these specified parties. Financial information in this report may be privileged. The
restrictions of 18 U.S.C. 1905 should be considered before any information is released to
the public. However, upon release by SIGAR, this report is a matter of public record and
its distribution is not limited.




May 16, 2014
Washington, D.C.




WILLIAMS ADLEY                                                                       16
SIGAR                               Special Purpose Financial Statement                                    ICMA


Schedule of Findings and Questioned Amounts
Finding 2014-01: Unsupported Questioned Costs (Material Non-Compliance
and Material Weakness)

Condition: ICMA could not provide sufficient supporting documentation for the
following transactions in the Other Direct Costs, Travel and Transportation, and
Activities line items of the Special Purpose Financial Statement:

Table 2: Questioned Costs related to Other Direct Costs
                                                                                                 Total Questioned
       Item Number 5                 Condition             Questioned Costs     Indirect Costs
                                                                                                       Costs

                            No supporting
                     97     documentation was                       $23,823
                                                                                        $5,498             $29,321
                            provided for war risk
                            insurance expense

       45, 70, 79, 100,     Local payroll transactions
                            for which supporting
              104, 110,
                            documents was missing                   $128,041           $25,857            $153,898
              119, 143      (timesheets and payroll
                            worksheets)
        1, 2, 10, 12 13,
        16, 17, 33, 47,     Lack of USAID approval
       68, 72, 73, 74,      for the Garda World
                                                                  $1,432,645          $332,079          $1,764,724
        77, 78, 81, 83,     contract for security
       84, 85, 86, 88,      services provided
                 90, 94
                 Totals                                           $1,584,509          $363,434          $1,947,943



      Table 3: Questioned Costs related to Travel and Transportation
                                                                                                 Total Questioned
      Item Number                  Condition             Questioned Costs      Indirect Costs
                                                                                                       Costs

                           Consultant and Staff
                           travel transactions for
                           which supporting
          12, 24, 48,                                               $1,018               $241               $1,259
                           documentation was not
                           provided (travel
                           authorizations).
               Total                                                $1,018               $241               $1,259




5
    Represents a sequential number assigned to sample items. Attachment B presents a detail of these transactions.

WILLIAMS ADLEY                                                                                                17
SIGAR                      Special Purpose Financial Statement                                ICMA

   Table 4: Questioned Costs related to Activities

                                                                                     Total Questioned
  Item Number            Condition             Questioned Costs
                                                                    Indirect Costs         Costs

                  Subcontractor
            121   transaction for which                  $1,560
                                                                             $360              $1,920
                  contract and timesheet
                  was missing
  Total                                                  $1,560              $360              $1,920




   Table 5: Summary of Unsupported Questioned Costs

          Condition             Questioned Cost          Indirect Costs       Total Questioned Costs
  Other Direct Costs                       $1,584,509             $363,434                 $1,947,943
  Travel                                       $1,018                 $241                     $1,259
  Activities                                   $1,560                $360                      $1,920
                       Total               $1,587,087             $364,035                 $1,951,122




Criteria: 22 CFR 226.53, Retention and Access Requirements for Records, states that
“financial reports, supporting documents, statistical records, and all other records
pertinent to an award shall be retained for a period of three years from the date of
submission of the final expenditure report or, for awards that are renewed quarterly or
annually, from the date of the submission of the quarterly or annually, from the date of
the submission of the quarterly or annual financial report, as authorized by USAID”.

Additionally, 2 CFR 230 requires that salaries and wages are supported by time records
or timesheets documenting the total hours worked each day reflective on an after- the-
fact determination of actual activity and coinciding with one or more pay periods.

Also, according to Cooperative Agreement 306-A-00-07-00514-00, Section A.14 Special
Provisions, All provisions of 22 CFR 226 are applicable to the recipient. As per 22 CFR
226.25 (c) (8), recipients must request prior approval from the USAID Agreement
Officer for the award, sub-award, transfer or contracting out of any work under an
award, unless described in the application.

In addition, ICMA’s Annex 1 to the procurement manual, titled Procurement Categories,
Thresholds and Procedures for Services and Commodities, requires the donor’s Contract
or Agreement officer approval for procurements of more than $100,000 for in country
and off shore procurements under the AMSP program.

Cause: ICMA lacked a storage implementation process in their field operations to
ensure that all costs reimbursed were adequately stored in an organized manner and


WILLIAMS ADLEY                                                                                   18
SIGAR                       Special Purpose Financial Statement                           ICMA

were readily available for future references, resulting in ICMA Headquarters employees’
inability to locate documentation to support costs incurred and reimbursed by USAID.

Effect: The absence of supporting documentation resulted in $1,951,122 in questioned
costs incurred and reimbursed. Further, without documentation that could justify costs
incurred and reimbursed the risk of overcharging the U.S. Government could increase.
It may also create opportunities and may also limit the detection, prevention or
detection of fraud, waste, and abuse of government funds.

Recommendation: We recommend that ICMA:
  a) provide USAID with records that clearly support the $1,951,122 in questioned
     costs presented above that were charged to USAID/Afghanistan;
  b) reimburse USAID/Afghanistan for those amounts for which supporting
     documentation could not be provided; and
  c) provide internal training to its personnel (at headquarters and field offices) to
     emphasize the importance of record retention.


Finding 2014-02: Ineligible Questioned Costs (Material Non-Compliance
and Material Weakness)

Condition: Ineligible costs amounting to $40,344 were incurred by ICMA related to
international business class travel to and from Afghanistan.

Table 6: Questioned Costs related to Travel and Transportation


                                                      Questioned                        Total
   Item Number                 Condition                             Indirect Costs
                                                        Costs                         Questioned
                                                                                        Costs

                         Business class travel for,
     44, 46, 54, 58,   7 travelers, in excess of 14
                          hours with inclusion of
         68, 70, 73             rest stop without
                                                          $32,524            $7,820      $40,344
                       reasonable justification or
                                USAID approval.
             Totals                                        $32,524           $7,820       $40,344


Also, ICMA’s employee agreements include a clause that states ICMA will pay for
business class travel.

Criteria: OMB Circular A-122, Attachment B, Selected Items of Cost (51), Travel Costs,
states that in the absence of an acceptable, written non-profit organization policy
regarding travel costs, the provisions of the Administrator of General Services


WILLIAMS ADLEY                                                                              19
SIGAR                    Special Purpose Financial Statement                           ICMA

provisions shall apply. The General Services Administration’s (GSA) Federal Travel
Regulation §301-10.122 specifies that for both domestic and international travel, coach
class accommodations must be used. Section §301-10.123 of the same regulation
outlines a set of conditions, that if present, are sufficient to justify the use of business
class travel. One of them, §301-10.123(b)(6) allows business class travel when the
scheduled flight time is in excess of 14 hours, as long as the business class travel is in
accordance to §301-10.125.

Further, GSA’s Travel Regulation §301-10.125 states that when the 14-hour rule is used
to travel in business class, the traveler will not be eligible for a rest stop en route to his
duty site.

Cause: ICMA did not fully understand the business class travel rules applicable to
flights in excess of 14 hours and did not realize that they were in violation of the Federal
Travel Regulations.

Effect: ICMA has incurred expenses that were not reasonable and ineligible per Federal
Travel Regulations and therefore, resulting in the use of funds that could have been put
to better use elsewhere in the program. As a result, we questioned the eligibility of
$40,344 in incurred costs.

Recommendation: We recommend that ICMA reimburse USAID Afghanistan for
those ineligible costs of $40,344 or provide USAID’s authorization for the exception to
the Federal travel regulation.

We also recommend that ICMA revise their policies and procedures to be in compliance
with Federal Travel Regulations related to international travel and business travel
utilization.


Finding 2014-03: Non-competitive procurement for two program related
activities (Non- compliance and Significant Deficiency)

Condition: ICMA failed to enforce their policies and procedures in two (2) program
related activities for which the original contract was substantially modified. Bid procedures
were performed for each original contract. However, both contracts were substantially
modified and competitive procurement for the additional work was not performed as
required. Although, ICMA has written procedures in this area, the policies do not address
when exceptions to this policy are allowed and the necessary documentation of such actions.
Finally, no documentation was provided indicating that a proper approval to use the same
supplier was granted by ICMA management.




WILLIAMS ADLEY                                                                            20
SIGAR                              Special Purpose Financial Statement                                                  ICMA


                                                                                                                   Questioned
Project/ Contract                                                                                                   Amount 6
                                                                 Issue
    Number

                       -Initial fixed priced Purchase Order (PO) for $34,955 was awarded in October 2009
                       to Donya Afghanistan Logistics and Supply Service. As part of this PO ten (10)
Municipal Waste        Garbage motor tricycles were to be provided by the vendor at a price of $1,730 per
Management/            unit.
AMSP/MWM               - In January 2010 the PO was amended to add eight (8) additional units to the order              $21,076
Equip -                and increase the unit price to $2,132. ICMA’s technical team requested changes to
06/Oct/2009            the front cabin that included a wind screen, mirrors and headlights. This
                       substantially changed the product that was initially requested from the vendors who
                       participated in the initial offering. These changes increased the original PO with
                       Donya (vendor) from $34,955 to $56,031.
Indirect Cost                                                                                                            $4,864

                       - Initial fixed priced contract was awarded to Sahar Abbasi Construction Company
                       (SACC) on February 2010 in the amount of $59,557 for the construction of a coffee
                       house in Asadabad.
                       - In March 2010 the contract was amended in the amount of $24,120 to fund the
Asadabad Coffee        construction of a brick wall around the coffee house as a result of the original
House                  construction site being changed near a flood area (Kunar River) at the request of the
Construction/          Asadabad Mayor. The contract between ICMA and SACC (vendor) is now valued at
                       $83,677.                                                                                         $32,397
AMSP/Asadabad.
                       - In April 2010 the contract was modified again in the amount of $5,418 to account
Coffee House-          for the extension of the aforementioned brick wall at the request of the elders of
                       Yargul Village. The extension of the wall, by 15mm, would now protect a girl’s school
11/January/2010        and the coffee house from floods due to their proximity to the Kunar River. The
                       contract is now valued at $89,095.
                       - In June 2010 the contract was amended for the last time in the amount of $2,869.
                       Additional materials were needed to increase the depth of the foundation for the
                       construction due to stability issues with the land. The value of the contract is now
                       $91,954.
Indirect Cost                                                                                                            $6,505

Direct Costs
                                                                                                                       $53,473
Subtotal

Indirect Costs
                                                                                                                        $11,369
Subtotal

                                                                                                                       $64,842
Total



Criteria: ICMA’s Procurement Manual for the AMSP Program, section 10.2.1, states
that, “once a contract has been awarded and signed, it is only permitted to amend the
contract if the contract provisions call for modification, or if additional related goods,
services, and/or works are to be rendered by the same supplier in furtherance to the
execution of an original contract. Contract amendments are not appropriate for
substantial amendments to the scope of the goods, services or works to be delivered. All
other situations call for a new competitive selection of a supplier.”



6
  Questioned cost amount represents the difference between the original contract awarded and the value of the contract after
the substantial modifications. The associated indirect costs were separately calculated using the applicable Negotiated Indirect
Costs Rates.

WILLIAMS ADLEY                                                                                                              21
SIGAR                   Special Purpose Financial Statement                      ICMA

22 CFR 226.43 states that all procurement transactions, including these instances of
substantial modifications to contracts that should have been treated as a new
competitive selection of a supplier, should be conducted in a manner to provide, to the
extent practical, open and free competition.

Cause: ICMA indicated that due to the proximity of the end of the period of
performance for the cooperative agreement, they decided to select the same vendor who
was performing under the original contract and modify their arrangement to include the
additional work and goods necessary prior to closure of the AMSP program. Also, the
timeline encountered during the construction did not allow for rebidding the additional
work.

Effect: The lack of competition could allow vendors to inflate the price of the
additional request to recover lost income in the original contract. The absence of
documentation showing that other vendors were evaluated as part of the modification of
the original contracts, limited us in determining that the costs charged to USAID above
the original, competitively procured contract were reasonable for the goods and services
provided.

Recommendation: We recommend that ICMA reimburse USAID for the amount of
$64,842, the cost of substantial improvements, which were not subject to competition.
In addition, ICMA should revise their policies and procedures to obtain approval from
the funding agency prior to making a sole source award for substantial amendments to
the scope of the goods, services, or works to be delivered under a contract.


Finding 2014-04: Vetting Sub-awards and Subcontracts (Material non-
Compliance, Material Weakness)

Condition: ICMA was unable to provide supporting documentation for vetting efforts
conducted prior to awarding forty-seven (47) contracts over $25,000 during the
performance period, May 1, 2007 through August 31, 2010. In 2014, ICMA properly
documented its vetting of contractors. None of the contractors and the sole sub-grantee
appeared on the lists affiliated with prohibited parties.

In 2010 ICMA made changes to its Field Operations Manual to ensure that adequate
vetting is performed and documented for procurements in excess of $5,000 in a timely
manner.

Criteria: Cooperative Agreement No. 306-A-00-07-00514, includes as a special
provision, Executive Order on Terrorism Financing (Feb 2002), which states that U.S.
law prohibits transactions with, and the provision of resources and support to,
individuals and organizations associated with terrorism. It is the responsibility of the
recipient to ensure compliance with these Executive Orders and laws. In order to ensure
compliance with E.O. 13224 and related requirements, all awardees are expected to
conduct their own review of Non-US Parties competing for contracts and document


WILLIAMS ADLEY                                                                      22
SIGAR                   Special Purpose Financial Statement                      ICMA

their efforts.

In addition, 22 CFR 226.53 (b) states that financial records, supporting documents,
statistical records and all other records pertinent to an award shall be retained for a
period of three (3) years form the date of submission of the final expenditure report.

Cause: Up until 2010 the ICMA field office manual did not require that vetting be
performed nor that vetting be documented in the contract files. Also, ICMA lacked a
contract checklist to assist the contracting personnel in ensuring that all required
procedures had been performed and were documented.

Effect: Not having developed and implemented proper vetting procedures increased
the risk that ICMA could enter into contracts with parties excluded from doing business
with the U.S. Government that may have ties to terrorist organizations.

Recommendation: We recommend that ICMA maintain in the contractor and
subcontractor files supporting documentation to demonstrate that ICMA did verify all
contractors and sub-grantee under the award to provide assurance to USAID that ICMA
has complied with the Executive Order on Terrorism Financing.


Finding 2014-05: Improper Accounting Procedures (Non- compliance and
Significant Deficiency)


Condition: On November 18, 2008 ICMA modified their contract with Garda World to
provide security services for two ICMA programs, the Afghanistan Municipal
Strengthening Program (AMSP) and the Commercialization of Afghanistan Water and
Sanitation Activity (CAWSA). November 2008 to August 2010, as payments were made,
the full expense was initially recorded to AMSP. Periodically, the CAWSA program
reimbursed the AMSP at a rate of $5,000 per month. The expenses recorded in the
AMSP general ledger were reduced by the payment. However, the timing of the
payments affected the accuracy of financial reports for three of seven quarterly periods
between November 2008 and August 2010. Finally, the security costs allocation basis
used to share security cost between the two programs was not supported.

Criteria: According to 22 CFR 226.21, a recipients financial management system shall
provide for accurate, current and complete disclosure of financial results of each
federally-sponsored project or program in accordance with the reporting requirements
of 22 CFR 226.52. In addition, the recipients’ financial management system shall
provide for records that identify adequately the source and application of funds for
federally-sponsored activities. Those records shall contain information pertaining to
Federal awards, authorizations, obligations, unobligated balances, assets, outlays,
income and interest.

Cause: ICMA did not have written policies and procedures or appropriate controls in


WILLIAMS ADLEY                                                                      23
SIGAR                  Special Purpose Financial Statement                     ICMA

place to ensure that shared program expenses were properly recorded in the accounting
system at the time of payment. Also, the CAWSA budget for security cost was based on
only the incremental costs not on the appropriate sharing of expenses.

Effect: The AMSP expenses on the federal financial reports were overstated
throughout the quarters until the adjustment occurred.

Recommendation: We recommend that ICMA develop and implement written
policies and procedures and controls to ensure that shared program expenses are
recorded to the correct program at the time of payment/expensing.           Also, we
recommend that ICMA provide to USAID supporting documentation to support the
basis used for the allocation of security costs between these two programs.




WILLIAMS ADLEY                                                                   24
SIGAR            Special Purpose Financial Statement   ICMA


Attachment A – Management Response




WILLIAMS ADLEY                                          25
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          26
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          27
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          28
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          29
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          30
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          31
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          32
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          33
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          34
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          35
SIGAR            Special Purpose Financial Statement   ICMA




WILLIAMS ADLEY                                          36
SIGAR                   Special Purpose Financial Statement                        ICMA


Attachment B – Auditor Response to
Management Comments
Williams Adley, in consideration of the views presented by ICMA management, presents
the following rebuttal and clarification to certain matters presented by the auditee. The
responses below are intended to clarify factual errors and provide context, where
appropriate, to assist users of the report in their evaluation of the findings and
recommendations included in this report. In those instances where management’s
response did not provide new information and support to modify the facts and
circumstances of the report findings, we have not provided a rebuttal or clarification.

Finding 2014 – 01
ICMA management asserts that they do have a proper storage implementation process
because the majority of the requested documentation was located by ICMA. They state
that a possible reason for not being able to locate these documents could be due to the
fact that these funds were audited several times for ICMA A-133 audits. Consequently,
ICMA states, that files retrieved from the original storage for an audit are sometimes
lost or not returned to its original files at the conclusion of the audit. We contend that
proper procedures would allow ICMA to provide us with all of the requested
documentation.

In addition, ICMA rebuts the amount of $1,956,265 of unsupported questioned costs.
The following is our response to ICMA management comments.

Security Cost – Questioned Cost $1,764,724
ICMA states that the security contract granted to Garda World followed the appropriate
procurement process. According to ICMA, security funds were included in the
cooperative agreement budget and narrative that were approved by the USAID.
However, Garda World was not included in the narrative as a sole source vendor. ICMA
claims that former program and administrative staff from the AMSP project sent email
communication stating that USAID approval for this contract was obtained. However,
ICMA was not able to find this particular email communication in their files. ICMA also
states that they have several communications that were issued by USAID staff that
demonstrate that USAID was knowledgeable of the Garda World security contract.

ICMA contends that the USAID’s approval of Modification No. 7 in June 2009
demonstrates an implicit retroactive approval of the Garda World security contract.
Through Modification No. 7, ICMA informed USAID that security costs of Garda World
had doubled from US$ 20,000/month to US$43,000/month due to the deteriorating
security situation. Modification 7 was approved by USAID and a copy was provided to
the auditors.

When requested by the auditors, ICMA could not provide supporting documentation to


WILLIAMS ADLEY                                                                        37
SIGAR                   Special Purpose Financial Statement                       ICMA

validate that approval for the contract terms and costs were given; nor could they
corroborate the existence of the e-mail demonstrating USAID approval. Additionally,
the letters referred to and provided by ICMA were not from the USAID contracting
officer.

Finally, the approval of modification 7 from USAID cannot be seen as an implicit
retroactive approval. Having knowledge of and providing documented approval from
the contracting officer are not the same. Consequently, the questioned cost for security
services remains.

Local Payroll – Questioned Cost $153,898
Although ICMA rebuts the questioned cost of $156,498, they do agree on the importance
of the timesheet to support labor cost. Our questioned cost is based on 2 CFR 230
requiring awardees to support salaries and wages by time records or timesheets.
However, ICMA did provide the missing contract to support $2,600 paid to an
employee. Therefore, the amount of $2,600, plus the indirect cost share of $624, were
adjusted in the report. Based on the CFR requirement, the remaining questioned cost
$153,898 for labor remains.

ICMA also states that $500 of the questioned costs correspond to legal advisory
services. This amount is recorded as local payroll in ICMA records and the invoice ICMA
provided state the following verbatim: “I was assigned as legal advisor of your office on
11-Oct-2008. I want you to pay my salary of (March 2009) amount of (500) $US. Tax
included.”

The invoice provided to us does not make any reference at all to ICMA and does not
specify the services rendered. ICMA did not provide a written contract supporting that
these services were approved by ICMA and ensuring that the payment received was in
accordance with the terms of the contract. Therefore, the questioned cost related to
these services remains.

Travel – Questioned Cost $1,259
We evaluated the documentation provided by ICMA and were able to corroborate these
expenses. The original questioned amount of $2,661 was adjusted in the report by the
supported amount of $1,402. Therefore, the unsupported amount of $1,259 remains
questioned.

Unsupported Payment to Subcontractor – Questioned Amount $1,560
ICMA states that the individual worked for only 26 days and, as they understand it, he
was on his trial period, therefore it may explain the absence of a contract.

Under the Afghanistan labor law Chapter Two; Recruitment and Employment Contract,
employment contracts are required inclusive of probationary periods. The auditors were
not provided with an employee contract nor timesheets. Therefore, the questioned cost
remains.


WILLIAMS ADLEY                                                                       38
SIGAR                    Special Purpose Financial Statement                          ICMA

Software Expense – Questioned Cost $511
The amount questioned was related to currency exchange differences and not due to
supporting documentation. After reviewing the supporting documentation provided by
ICMA, we were able to corroborate the expenses claimed to USAID. Therefore, the
amount of $415 plus its indirect cost share of $96 were adjusted in the report.

Insurance Expense – Questioned Cost $29,321
ICMA could not provide supporting documentation to support the war risk insurance
coverage to employees working in Afghanistan. As such, the questioned cost for the
insurance coverage of $23,823, plus it indirect cost share of $5,498, remains.


Finding 2014 - 02
ICMA states that, under federal regulations, a business-class airfare is allowable when
the travel time, without layover, exceeds 14 hours. ICMA also states that because of the
flights stopping in Dubai is a forced stop and not considered a rest stop according to
USAID’s ADS.

The USAID ADS states that business class should only be chosen in certain
circumstances such as where travel is over 14 hours measured by the shortest feasible
routing, including reasonable layovers; work schedules/demands do not allow for the
traveler to depart earlier and take a rest stop; a premium class lounge will not provide
enough rest, comfort and working environment as compared to business class travel; the
traveler must report to work on the day of arrival; the point of origin, final destination,
or both must be outside the continental United States (OCONUS).

Also, the ADS requires that the travel authorization, which is required prior to travel,
include the statement: “Premium class air travel is authorized for TDY travel in excess of
14 hours in lieu of a rest stop. The traveler is required to report for duty the day of
arrival and cannot depart earlier to accommodate the rest stop.” This statement is
required in instances of forced stops as well per the policy. Authorization from an
approving official is required to incur premium travel costs for government business.

The auditor was not provided with a travel authorization inclusive of the required
information nor authorization from an approving official.                 Additionally, no
documentation was provided indicating that the employee or consultant reported for
duty the day of arrival. Also, of the seven transactions questioned, six relate to the travel
of one ICMA executive, whose employment contract indicated that ICMA will pay
business class accommodation for any business-related travel.               Therefore, the
questioned cost related to ineligible business class airfare remains.


Finding 2014 – 03
ICMA does not concur with the finding and recommendation. ICMA believes that those
contract amendments did not violate either the ICMA Procurement Manual or any

WILLIAMS ADLEY                                                                           39
SIGAR                  Special Purpose Financial Statement                       ICMA

provisions of 22 CFR 226.42, which require competition “to the maximum extent
practical” because competition was not practical.

The auditor understands the explanations provided. However, we consider the changes
to be substantial modifications and a violation of ICMA policy regarding contract
amendments. As such, the questioned cost for those contract amendments remains as
stated.


Finding 2014 – 04
ICMA concurs with the finding and recommendation. ICMA states that corrective
actions have been established and implemented ensuring that vetting procedures for
procurements over $5,000 are performed and that adequate document retention occurs
to support the vetting procedures.

We believe that the ICMA’s actions will address the intent of the recommendations.


Finding 2014 – 05
ICMA concurs with the finding and recommendation. ICMA states that they will
develop a written policy to establish the appropriate controls to ensure that expenses
shared among programs are properly recorded in the accounting system.

We believe that the ICMA’s actions will address the intent of the recommendations.




WILLIAMS ADLEY                                                                       40
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
